No. 21A33

In the Supreme Court of the United States
__________

JOHN HENRY RAMIREZ,
Petitioner,
v.
BRYAN COLLIER, EXECUTIVE DIRECTOR,
TEXAS DEPARTMENT OF CRIMINAL JUSTICE, ET AL.
Respondents.
__________

CERTIFICATE OF COMPLIANCE
I, Eric C. Rassbach, a member of the Bar of this Court and counsel for the amicus
on the accompanying Motion for Leave to File Brief Amicus Curiae and Motion for Leave to
File Brief Amicus Curiae on 8 ½ by 11-Inch Paper, of the Becket Fund for Religious Liberty in
Support of Petitioner, and the attached proposed Brief Amicus Curiae of the Becket Fund for
Religious Liberty in Support of Petitioner, certify under Rule 33.1(h) of the Rules of this
Court that the motion contains 446 words and the brief contains 2,261 words,
excluding the parts that are exempted by Rule 33.1(d).

Eric C. Rassbach
Counsel of Record
The Becket Fund for Religious Liberty
1919 Pennsylvania Ave. NW
Suite 400
Washington, DC 20006
Tel: (202) 995-0095
erassbach@becketlaw.org

